<html>
<title> - THAILAND: THE PATH TOWARD RECONCILIATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a>  

 
56-886PDF

2010

                THAILAND: THE PATH TOWARD RECONCILIATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

                           Serial No. 111-118

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Scot Marciel, Deputy Assistant Secretary and 
  Ambassador for ASEAN Affairs, Bureau of East Asian and Pacific 
  Affairs, U.S. Department of State..............................     7
Ms. Catharin E. Dalpino, Visiting Associate Professor, Asian 
  Studies Program, Edmund A. Walsh School of Foreign Service, 
  Georgetown University..........................................    23
Karl Jackson, Ph.D., Director of Asian Studies and South East 
  Asia Studies, The Paul H. Nitze School of Advanced 
  International Studies..........................................    33
Mr. Richard Cronin, Senior Associate, The Henry L. Stimson Center    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     4
The Honorable Scot Marciel: Prepared statement...................    10
Ms. Catharin E. Dalpino: Prepared statement......................    27
Karl Jackson, Ph.D.: Prepared statement..........................    35
Mr. Richard Cronin: Prepared statement...........................    45

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................    68

 
                THAILAND: THE PATH TOWARD RECONCILIATION

                              ----------                              


                        THURSDAY, JUNE 10, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The Committee on Foreign Affairs, 
Subcommittee on Asia, the Pacific and the Global Environment 
will come to order. The hearing today is to review the current 
crisis in Thailand. I know that my good friend, ranking member 
of the subcommittee, Mr. Manzullo, will be here later, and I am 
sure other members of the subcommittee will also join us. I am 
very appreciative of our experts who will be testifying, 
especially my good friend, Secretary Marciel, for taking time 
from his busy schedule to participate in this hearing this 
afternoon.
    So I will proceed with my opening statement.
    I had the privilege of meeting earlier this afternoon with 
the Special Envoy of the Prime Minister of Thailand. He is 
meeting with various officials in the administration and 
Members of Congress. For the life of me, I have a very 
difficult time pronouncing his name. I thought my name was bad. 
I will learn to get the rest of his name for the record down 
the line. I would like to proceed now with my opening statement 
for this hearing this afternoon.
    For over 5 years, the people of Thailand have seen their 
country embroiled in political strife, principally, but not 
exclusively, between two groups commonly referred to as the 
Yellow Shirts and the Red Shirts. The tension between the 
previous government under Prime Minister Thaksin Shinawatra and 
the Yellow Shirts led to a military coup in 2006 and the exile 
of Prime Minister Thaksin.
    After 1 year of rule by an interim government established 
by the coup, control of the country reverted to a 
democratically-elected government. But the political strife 
continued, peaking with the recent Red Shirt antigovernment 
demonstrations in Bangkok, which left over 80 people dead. The 
bloodshed and ongoing instability is cause for concern for the 
United States as well as for Thailand's many other friends in 
the region and in the world.
    Although relative calm has returned to Bangkok in recent 
days, most of the contentious issues remain unresolved. Indeed, 
the recent riots and crackdowns appear to have deepened 
divisions within Thai society. The process of reconciliation 
must be reinvigorated, hopefully, and properly, or tensions 
will remain, and the risk of further violence and instability 
will grow.
    I honestly believe the five-point plan proposed by Prime 
Minister Abhisit in early May of this year provided the right 
starting point for such a process. The plan called for all 
parties to uphold the monarchy, to resolve fundamental problems 
of social justice, to ensure that the media could operate 
freely and constructively, to create an independent committee 
to investigate casualties of the recent crackdowns and to carry 
out political reforms resulting in fresh elections that I 
believe were to be called this November. The plan formed the 
most pragmatic and plausible path toward an amicable return to 
stability, democracy and the rule of law.
    Just today, in a nationwide telecast, Prime Minister 
Abhisit called on all Thais to participate in the five-point 
plan for reconciliation. As a start, a religious ceremony 
involving five religious faiths was held this morning. The 
Prime Minister also asked leaders across the spectrum to gather 
opinions over the next 2 weeks on how best to implement the 
road map through meetings, which the Prime Minister and his 
Cabinet would facilitate. In addition, he announced that a 
committee to review the Constitution was being formed and next 
week the government would organize an assembly of three 
agencies--the National Economic and Social Development Board; 
the National Health Insurance Board; and the Thai Health 
Promotion Foundation--to gather opinions on how to solve the 
problems of social disparities.
    Thailand has gone through political crises in the past, 
including the Black May crisis of 1992; student massacre at 
Thammasat University in 1976; and the student uprising in 1973. 
What we have witnessed over the past few months, however, 
exceeds all of these in terms of those injured and killed, as 
well as the depth of the social fissures underlying the crisis. 
There is no doubt that Thailand has entered a critical period, 
one that could determine the direction of the country for years 
to come.
    Clearly the conflict in Thailand is an internal issue, and 
only the people and the leaders of Thailand can chart their way 
toward a resolution. Yet, as a close friend of Thailand, we 
should stand by the country during this difficult period and 
encourage the Thai Government and the people of Thailand to 
move toward reconciliation and the rule of law.
    It was with those words in mind that I introduced House 
Resolution 1321 last month expressing the sense of the House of 
Representatives that the political situation in Thailand be 
resolved peacefully and democratically. While that resolution 
has yet to advance, on May 24, the Senate introduced and 
adopted Senate Resolution 538, which was based on House 
Resolution 1321, and which expressed precisely the same 
position. I continue to believe the House should pass its own 
resolution due to the importance of the bilateral relationship. 
Our long history of friendship gained official sanction in 1833 
when Thailand became the first treaty ally of the United States 
in the Asia-Pacific region.
    In recent decades we have strengthened our ties to the 
military alliance we forged in 1954, through our designation of 
Thailand as a major non-NATO ally in 2003 and Thailand's valued 
contributions of troops in support of our U.S. military 
operations in Korea, Vietnam, the Persian Gulf, Afghanistan and 
Iraq.
    I just want to note for the record that, in my service as a 
Vietnam veteran, I will never forget the contributions and what 
it means to have a friend in those days of the Vietnam War. 
Thailand was one of our most important allies, and I will say 
this publicly to my colleagues and to the people, on behalf of 
our country, we are grateful for all that Thailand has done as 
a close friend and ally of the United States.
    Thailand has also been a major trading partner of the 
United States, a regional leader, a force for stability in 
Southeast Asia and a country with which we share common values 
and interests. The United States has always appreciated 
Thailand's many international contributions and we respect and 
admire its unique culture.
    Just prior to this hearing, His Excellency Mr. Kiat 
Sitthiamorn, Special Envoy of the Prime Minister, met with the 
members of the Foreign Affairs Committee and gave a first-hand 
account of the issues confronting Thailand. The crisis is 
complex and multidimensional, one that involves political 
conflict, economic tensions, social strifes and personal 
enmities. Fortunately, we have with us today our good friend 
Deputy Assistant Secretary Marciel and a group of experts to 
help us understand the things happening in Thailand, and they 
will be sharing with us their testimony as well.
    [The prepared statement of Mr. Faleomavaega follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. And with that, I would like to begin the 
hearing by having our Deputy Assistant Secretary for East Asian 
and Pacific Affairs and Ambassador to ASEAN, Secretary Scot 
Marciel, as our first witnesses this afternoon. Secretary 
Marciel is a career member of the Senior Foreign Service and 
has served in posts in Vietnam, the Philippines, Hong Kong, 
Brazil and Turkey, and as staff in the Economic Bureau's Office 
of Monetary Affairs. He is a resident of California, a graduate 
of the University of California at Davis--actually you should 
have gone to Berkeley, but that is okay, I forgive you--and the 
Fletcher School of Law and Diplomacy. He is married and has two 
daughters.
    Secretary Marciel.

   STATEMENT OF THE HONORABLE SCOT MARCIEL, DEPUTY ASSISTANT 
  SECRETARY AND AMBASSADOR FOR ASEAN AFFAIRS, BUREAU OF EAST 
      ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Marciel. Thank you very much, Mr. Chairman, Ranking 
Member Manzullo, and members of the subcommittee. Thank you 
very much for inviting me here today to discuss recent events 
in Thailand, our longtime friend and treaty ally in Southeast 
Asia.
    While the streets of Bangkok have returned to relative 
calm, the situation remains fragile, and the issues that must 
be addressed for calm to become stability are complex and 
challenging. Thailand has just experienced the worst political 
violence in a generation. The causes of the recent events are 
complex, and the consequences are not easy to predict. We were 
greatly saddened by the loss of life that resulted from the 
clashes. One hopeful sign, however, is that the Thai political 
debate now is once again taking place in the Parliament rather 
than through violent street protests.
    Our friendship with Thailand is based on a relationship 
that spans over two centuries and a common set of values that 
define our two peoples. Among these are a commitment to 
democracy; an emphasis on good governance, accountability, and 
transparency in the actions of government; and the rights of 
peaceful freedom of assembly and expression. These values are 
an integral part of the vibrant society that Thailand is today, 
and they serve as important touchstones for all sides in 
efforts to chart a path forward to national reconciliation.
    The importance to the United States of our long-standing 
friendship with Thailand cannot be overstated. As one of only 
five U.S. treaty allies in Asia, Thailand remains crucial to 
U.S. interests in the Asia-Pacific region and beyond. The U.S. 
mission in Thailand, one of the largest in the world, affords 
the United States a regional operating platform that would be 
difficult to replace elsewhere. Our bilateral relationship 
provides incalculable benefits in health, security, trade and 
investment, in law enforcement cooperation, and humanitarian 
assistance to refugees to both countries.
    The last several years have been turbulent for Thailand. 
The restoration of elected government in early 2008 ended the 
short-lived post-2006 coup interim government, but left major 
divisions in the Thai body politic. Court decisions forced two 
Prime Ministers from office in 2008, and three times in the 
past 2 years the normal patterns of political life took a back 
seat to disruptive street protests. The yellow-shirted People's 
Alliance for Democracy occupied Government House from August to 
December 2008, shutting down Bangkok's airports for 8 days, to 
protest governments led by the People's Power Party, the heir 
to the Thai Rak Thai Party of deposed Prime Minister Thaksin.
    The fall of the PPP-led coalition government in December 
2008 and its replacement by the current coalition reversed the 
previous political configuration. In April 2009, the red-
shirted United Front for Democracy against Dictatorship, UDD, 
disrupted a regional Asian summit, ASEAN summit, and sparked 
riots in Bangkok after Mr. Thaksin, now a fugitive in the wake 
of his conviction on abuse of power charges, called for 
revolution to bring him home.
    Neither of these earlier protest cycles, however, 
approached the March 12 to May 19 crisis in terms of the human 
and financial toll exacted. The crisis, which paralyzed the 
government, left 88 people dead and caused an estimated $1.5 
billion in arson-related property losses, accentuated major 
political cleavages in the Thai population.
    Throughout the recent turmoil, the United States has been 
active in promoting dialogue, reconciliation, and the peaceful 
settlement of political disputes. Secretary Clinton, for 
example, released a video message to the Thai people on April 
13 urging peaceful dialogue. Our embassy in Bangkok engaged 
with Thai Government officials at all levels as well as leaders 
of the opposition Red Shirt movement to underscore both the 
value we place on our relationship with Thailand and the 
importance of resolving political differences through 
compromise rather than force or violence. We also worked to 
ensure that we were doing everything possible to protect the 
safety and well-being of American citizens in Thailand.
    While the government succeeded in ending the protest and 
restoring order, the fundamental divisions within Thai society 
that lie at the root of the political tensions remain. We 
welcome Prime Minister Abhisit's vow to follow through on the 
reconciliation road map proposal he originally put forward with 
the goal of ending the UDD protest peacefully. We support the 
establishment of an independent fact-finding commission to 
review the incidents of violence from March through May and 
determine who is responsible.
    While this would be a positive first step, it should not be 
the last. Now more than ever it is critical for all Thai actors 
to promote dialogue and reconciliation, to recognize the 
legitimate grievance of Thai citizens, to support the equal and 
impartial application of the law, and to foreswear the use of 
violence to resolve political differences.
    The Prime Minister's original proposal included a date in 
November for early elections. He has since indicated that 
conditions in Thailand do not allow for November elections. The 
door to early balloting is not closed, however, and while it 
will be up to the Thais to work out the date, the Prime 
Minister's own plan acknowledged that democratic elections are 
an important part of reconciliation.
    The United States has stressed consistently that all sides 
should work out differences within Thailand's democratic 
framework and without resorting to violence. Assistant 
Secretary Campbell reiterated this point on his recent visit to 
Bangkok. The right to peaceful assembly is a key component of 
Thai democracy, but Thais must also exercise their 
responsibility not to let that peaceful assembly turn violent. 
Responsible leaders across the Thai political spectrum and in 
civil society need to emphasize to their supporters that in a 
democracy, violence has no place in politics. Leaders who 
refuse to condemn violent acts do a disservice to their cause, 
to their supporters, and to their country.
    Thailand remains one of our oldest treaty allies in Asia 
and our close friends. The United States can be a source of 
support as the Thai work to resolve the issues that still 
divide them, but it is the Thai people themselves who must make 
the difficult choices on how to proceed. For our part, the 
United States will continue to do what we can to promote 
reconciliation among the Thai people and to preserve and 
strengthen this enduring friendship.
    Thank you, Mr. Chairman, and I am pleased to answer 
questions.
    [The prepared statement of Mr. Marciel follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you.
    We are joined by the ranking member of the subcommittee, my 
good friend from Illinois, for his opening statement.
    Mr. Manzullo. Thank you, Mr. Chairman, for calling this 
very important hearing.
    America's relationship with Thailand dates back over 177 
years to 1833, in the days of President Andrew Jackson. 
Thailand remains an important friend of the United States, and 
we value the relationship.
    The Ambassador of Thailand to the United States recently 
paid an official visit to the congressional district that I 
represent and Rockford College, which I have the honor to 
represent. We truly appreciate his visit. It was a rare 
opportunity for college students to ask questions of an 
ambassador, and he is a truly witty man, and we are absolutely 
thrilled he took the time to come out and spend time with these 
young people.
    We urge the good people of Thailand to seek peaceful and 
nonviolent ways in which to express their disagreement. We also 
urge the Royal Thai Government to hold elections as soon as 
feasible. Most importantly, elections resulting from a free and 
fair process have to be respected. I understand that the 
current crisis has many dimensions and goes beyond Red Shirts 
and Yellow Shirts; however, our desire is to encourage a 
genuine reconciliation amongst the good people of Thailand.
    We look forward to hearing the second panel.
    I appreciate, Mr. Marciel, your excellent testimony and the 
number of years you spent working on this issue. I know it has 
got to be very dear to your heart.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from Illinois.
    Mr. Secretary, as I recall, in recent years when there was 
a military coup in Thailand, we immediately imposed sanctions. 
Are those sanctions still in place or have they been lifted?
    Mr. Marciel. Mr. Chairman, you are right. After the coup in 
2006, we did put in place sanctions as required by law because 
we determined it was a military coup under the law. We lifted 
those sanctions after the subsequent elections at the end of 
2007, I believe it was. Early 2008.
    Mr. Faleomavaega. Which raises another question. I wanted 
to dialogue with you on the question of sanctions. I know our 
law does stipulate that whenever there is a military coup, we 
put on sanctions. But there was a tremendous sense of 
disappointment as I met with the leaders of Thailand. They felt 
betrayed. They felt that the United States should not have put 
these sanctions in place for the simple reason that this is an 
internal matter, and that the government and the people were 
trying every way possible to reconcile and go back to a 
democratic form of government.
    Do you think this law still has merit? Because here is 
another instance when there was a military coup that took place 
in Pakistan, by I think a general named Musharraf. For 8 years 
the coup was in place and we did not put any sanctions on 
Pakistan. Somewhat of a contradiction, in my humble opinion.
    Should there be a better way of measurement on how our 
Government should react or respond to coups? Each country has 
their own particular situation. As to why the coup took place 
in Pakistan, which we didn't put any sanctions--in fact, we 
gave Pakistan billions of dollars, and for our own reasons. But 
when a friendly ally like Thailand had a coup for whatever 
reasons, we put the same onus on them and make them feel like 
they are a hostile and undemocratic country. And I wanted to 
ask your opinion, do you think the law is good? Is it a good 
law?
    Mr. Marciel. Thank you very much, Mr. Chairman. A couple of 
comments, if I could.
    One, you are right that a number of people in the 
government, the postcoup interim government, complained about 
the imposition of sanctions, which was a cutoff of assistance, 
certain types of assistance. It wasn't sanctions of the sense 
of ending trade or banning investment; it was rather limited. 
Others, I have to say, in Thailand criticized us for not being 
tough enough and not responding harshly enough, asking were we 
sending an adequately strong message about our democratic 
values. So we kind of got it from both sides, to be perfectly 
honest.
    I think the key for me is that the sanctions are one piece 
of the reaction, as you know, mandated by law. I think the 
bigger picture, though, is how we tried to deal with that 
government. We did not become an enemy or hostile to Thailand 
at all. We made it clear throughout this period--and I remember 
it well because it was a difficult period when a country that 
is an ally and a close friend and is important to all of us was 
going through a difficult period. We had to impose these 
sanctions, but we also did work very carefully and very closely 
with the government and others in Thailand to try to help them 
move forward out of this situation.
    So I think we played a positive role, despite the 
requirement to impose those sanctions, in helping Thailand to 
move on to the next step postcoup and back to democracy.
    Mr. Faleomavaega. Do you think perhaps rather than just 
immediately--because the law dictates as soon as a coup is 
committed that we apply sanctions--do you think the law could 
be revised, or amended at least, to give the administration or 
Congress a little leeway or time to examine the given sanctions 
so that we don't put sanctions automatically in the way that we 
have done to Thailand and we have done to Fiji, and we don't do 
it to Pakistan?
    Mr. Marciel. Mr. Chairman, in all honesty I am not sure 
that I can speak for the administration on this. Certainly I 
think it is a worthwhile discussion to have certainly among 
Congress and between the administration and Congress. But I 
couldn't give you an authoritative statement from the 
administration on that.
    Mr. Faleomavaega. Thank you.
    The situation and the crisis in Thailand is a lot deeper 
than the Red Shirts and the Yellow Shirts. We know that. I 
think there is also the question of the rise of the middle 
class where they seem to place a very critical emphasis on this 
Yellow Shirt and Red Shirt problem that we are faced with. I 
just wanted to ask what is the current situation so far as who 
really is pulling the strings, thereby causing the Red Shirts 
to do what they are doing right now? According to media 
reports, they say Thaksin is behind it, and other reports say 
that a group of prominent middle-class businessmen might be 
behind it. It seems every time the government tries to bring 
everybody together to reconcile, they suddenly break off the 
negotiations. Can you elaborate? Can you share with us why 
there seems to be this uncertainty and--I shouldn't say 
contradictions, but who is leading the Red Shirts in that 
respect?
    Mr. Marciel. Mr. Chairman, that is actually a very good and 
very difficult question.
    I have been working on Southeast Asia off and on for about 
25 years. I am not sure I have encountered a situation as 
complex as the one in Thailand right now in terms of trying to 
understand the politics. It is extraordinarily complicated. And 
as you pointed out, it is not as simple as one group against 
another. There are very many layers and complexities involved.
    Certainly we have seen a number of factors at play. One of 
those is I think there is a general consensus that one of the 
things that Prime Minister Thaksin did when he was Prime 
Minister was, if you will--I don't know if it is the right 
term--empowered a certain part of the population that 
previously may not have been as active in politics as it was. 
So you have certain elements of the population more active in 
politics, which generally is a good thing in terms of 
strengthening a democracy.
    But as far as pulling strings, our view, if I could 
simplify, would be to say that there are a lot of people out 
there protesting who have legitimate grievances and complaints. 
There are also people, including the former Prime Minister, who 
are encouraging and supporting the protests. I think it would 
be a mistake to say that it is all Prime Minister Thaksin or 
anybody else pulling strings. I think our understanding is that 
was one factor, but that there are thousands of people out 
there who felt strongly about what they were protesting for. So 
it is not someone pulling strings, although there are obviously 
people who are working to support those protests.
    Mr. Faleomavaega. In our meeting earlier with the Prime 
Minister's Special Envoy, Mr. Kiat Sitthiamorn, he indicated 
that the current crisis has resulted in a loss of some $50 
billion, affecting the economy of Thailand. Their tourism 
industry, in particular, has been severely affected by the 
crisis.
    My understanding is that when Prime Minister Thaksin became 
Prime Minister, he made tremendous advancements in providing 
help to the poor and destitute in the rural areas. Despite 
problems that affected the Thai Government's operations, 
somehow they helped people from the rural areas out in the 
country, basically people who are low-income level, and this is 
the reason why he is still so popular among the poor people.
    Is he the first Prime Minister who has given substantive 
attention to the needs of the poor in Thailand? Why does there 
seem to be such a consistent support stream of people out of 
the rural areas of the country?
    Mr. Marciel. Mr. Chairman, I don't know that I would say 
that he is the first Prime Minister to pay attention to the 
poor, but he certainly made it a major part of his platform to 
enact or expand programs that were designed to help rural 
areas. I think, as I understand it, the current government of 
Prime Minister Abhisit has actually continued a number of these 
programs or adjusted them somewhat, recognizing that some of 
them had value. So he certainly did play a role there.
    Mr. Faleomavaega. As I recall, Prime Minister Thaksin was 
taken to court for certain transactions as a businessman. Was 
it some kind of a telecommunications company that he sold or he 
purchased? I think he sold his company in Singapore for which 
he did not pay taxes; is that a fact? Is that true?
    Mr. Marciel. Mr. Chairman, I don't remember all of the 
details of it. There was certainly an issue when he sold his 
telecommunications company, and it got a lot of attention in 
Thailand, and it was being looked at by the Thai authorities. 
He was tried for corruption in the middle of 2008. I don't 
remember exactly what the charges are, but we could get that 
information to you if I can follow up.
    Mr. Faleomavaega. Can you, please? I would like to make 
that part of the record.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    Thaksin Shinawatra's sale of a telecommunications business to a 
foreign firm in 2006 (during his tenure as Prime Minister) prompted 
allegations of improper tax exemptions and abuse of power. The Thai 
Securities and Exchange Commission investigation cleared Thaksin of all 
wrongdoing that year.
    In October 2008, after the coup and change of government, the Thai 
Supreme Court issued an arrest warrant for Thaksin related to the 2006 
sale.
    In January 2007 the Royal Thai Government charged Thaksin for 
allegedly improper land purchases, unlawful use of state funds, and 
obstructing competition against his personal business by imposing an 
excise tax on telecommunication firms.

    Mr. Faleomavaega. Please, I am not pointing fingers; I am 
not trying to declare the man guilty, I am simply saying this 
is one of the problems that he encountered when he was Prime 
Minister. If there were other issues--was there some kind of a 
conspiracy or those who opposed him? Were there trumped up 
charges? Was he basically banished from Thailand, or can he 
return to Thailand at any time?
    Mr. Marciel. Mr. Chairman, he was convicted, and he fled 
Thailand, and so right now he is a fugitive. I don't want to 
speak for the Thai Government on this. I assume he probably 
could come back to Thailand, but he would face that conviction 
and whatever sentence he had.
    Mr. Faleomavaega. I am going to withhold further questions 
and yield to my good friend from Illinois for his questions.
    Mr. Manzullo. Mr. Chairman, you asked two questions that I 
wanted to ask. I think if I asked the same questions, I would 
get the same answer, and I am satisfied with the answers that 
you gave.
    More of an observation than anything, and it doesn't 
require any comment on your part, is the Thais' tremendous 
loyalty to a democratic state, for lack of a better word. I 
have talked to so many Thais, and they really love democracy. 
And one Thai told me, we love it so much that sometimes the 
military thinks it must enforce it. I thought that is an 
interesting comment. And yet whenever there has been a coup, 
the coup shortly thereafter talks about having elections, a 
continuous return to democracy. That is what makes the Thai 
situation so unique, so challenging, but so important that we 
encourage the Thais to work through this process to become even 
more established in their democratic values and ideals.
    I don't know what more the American people or our 
Government can do to encourage them to do that, because it is 
really engrained into their spirit.
    Did you want to comment on that? You don't have to.
    Mr. Marciel. Well, thank you, Congressman.
    Just briefly I would say that I agree that the Thai people 
care about their democracy. They want it, and I think Secretary 
Clinton has said all democracies are works in progress by 
definition, and the Thai one clearly is, and it is going 
through a difficult time now. I think there is a strong 
commitment to democracy among the Thai people, and for that 
reason I am confident over time they will be able to work it 
out, but obviously one of the struggles right now is between 
two--actually more than two, but fundamentally two different 
visions on how to move ahead.
    But I agree with you very much that the Thai are committed 
to democracy, and that this is something that the American--our 
role is to be as supportive of the nation and people of 
Thailand as possible, and to give all possible encouragement 
for them to work this out with the understanding that they are 
the ones who will have to work it out.
    Mr. Manzullo. Thank you.
    Mr. Faleomavaega. I thank the gentleman from Illinois for 
his questions. I was going to follow up with a question he had 
alluded to earlier. What exactly is the role of the military 
right now in the Government of Thailand? How much influence 
does the military have in Thai society, be it business or 
social?
    Mr. Marciel. Well, the military certainly has influence in 
the broader Thai body politic. It is a very respected 
institution in Thailand. It doesn't play a direct role in 
politics in the way in some countries military men are in 
Parliament, that sort of thing.
    Mr. Faleomavaega. How big is the Thai military?
    Mr. Marciel. I don't know.
    Mr. Faleomavaega. Can you provide that for the record?
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    The estimated size of the Royal Thai Army is approximately 200,000 
personnel and consists of seven infantry divisions, one armored 
division, one cavalry division, two special forces divisions, one field 
artillery division, and one air defense artillery division.
    According to Royal Thai Government figures, the 2009 Thai military 
budget was 170 billion baht ($5.2 billion), or 8.2 percent of the total 
national budget and 1.9 percent of Thailand's GDP. The RTG has budgeted 
155 billion baht ($4.8 billion) for 2010, a decrease of approximately 
nine percent.
    The Thai military controls a few businesses but does not have a 
major role in the Thai economy. The military supervises a battery 
factory and tanning plant as well as small military-related production 
of uniforms, small arms and other items for military personnel use. The 
Thai military controls some media outlets, such as TV Channel 5 and 
numerous radio stations. According to the Thai Ministry of Finance, 
these businesses are taxed and their revenues are used mostly for 
internal operations.

    Mr. Faleomavaega. I am also curious how much the Thai 
Government pays into its military budget, and how it affects 
the entire defense structure of Thailand. I would appreciate if 
you can provide that for the record.
    Mr. Marciel. I will be happy to do that.
    Mr. Faleomavaega. Is the military also involved in 
businesses like those other countries? I am curious.
    Mr. Marciel. I have to say, Mr. Chairman, I am going to 
have to get back to you on that. I think there is some 
involvement, but it is not something that I have followed. I 
will have to get you an answer on that.
    My guess is one of the experts on the panel that follows me 
will be able to give you an answer on that.
    Mr. Faleomavaega. A good example of this is Indonesia. This 
has been one of the most difficult problems in controlling 
their military, because they are involved in business and a lot 
of illegal business goes on in Indonesia. I was wondering if 
the same is true of Thailand.
    How much trade do we currently conduct with Thailand, in 
terms of our investments?
    Mr. Marciel. Mr. Chairman, I am afraid I am on a losing 
streak here.
    Mr. Faleomavaega. I think they should fire your political 
staff behind you for not giving you this good information.
    Mr. Marciel. I apologize. That is something I should have 
at my fingertips, and I don't, but we will get that to you.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    For 2009, U.S. exports to Thailand amounted to $6.9 billion and 
U.S. imports from Thailand totaled $19.1 billion.
    According to the Commerce Department's Bureau of Economic Analysis, 
U.S. foreign direct investment (FDI) in Thailand on a historical cost 
basis was $9.128 billion in 2008 (latest data available).
    The U.S. goods and services trade with Thailand totaled $35 billion 
in 2007 (latest data available). Exports totaled $10 billion; imports 
totaled $25 billion. The U.S. goods and services trade deficit with 
Thailand was $14 billion in 2007.
    Thailand is currently the United States' 23rd largest goods trading 
partner with $26 billion in total (two ways) goods trade during 2009. 
Goods exports totaled $6.9 billion; goods imports totaled $19.1 
billion. The U.S. goods trade deficit with Thailand was $12.2 billion 
in 2008. Trade in services with Thailand (exports and imports) totaled 
$3.4 billion in 2008 (latest data available). Services exports were 
$1.7 billion; services imports were $1.7 billion. According to Thai 
Government statistics, in 2009, Thai imports from ASEAN amounted to 
$26.9 billion and Thai exports to ASEAN reached $32.4 billion.

    Mr. Faleomavaega. What is the population of Thailand?
    Mr. Marciel. It is about 65-70 million.
    Mr. Faleomavaega. I will give you a gold star for that.
    Mr. Marciel. Thank you, Mr. Chairman, for giving me a 
question I can answer.
    Mr. Faleomavaega. I do want to thank you and I do want to 
thank Secretary Clinton for her interest in making sure that 
our involvement is constructive and positive, and in assuring 
the people of Thailand that the United States stands ready to 
help in any way.
    I think my good friend from Illinois mentioned something 
about democracy. Correct me if I am wrong, Mr. Secretary, but 
there is no perfect democracy in this world today; am I wrong 
on that?
    Mr. Marciel. You are not wrong on that.
    Mr. Faleomavaega. And I might add that democracy is nothing 
but an experimentation. It is a process. It took us 200 years 
to give African Americans the right to vote, or something like 
that, and we are still not there yet. We would like to see 
Mother Liberty with the blindfold and say that the Constitution 
is color blind, and that we look to the character of the person 
as the essence and not so much the color or ethnicity or 
nationality. I suppose that is the essence of democracy for 
which we strive, and I think we sometimes tend to forget that 
we try to democratize all other countries based on our 
application of democracy. Do you agree with that; do you think 
Thailand should follow our democratic system? We don't have a 
king, that is for sure.
    Mr. Marciel. I guess I would put it this way, Mr. Chairman. 
You are right, there is no perfect democracy. We are all 
working to strengthen our democracies. I think democracies can 
learn from each other. We all, and certainly you all, try to 
strengthen our democracy, and that is the best we can do. 
Others may chose to follow to some extent or take some lessons 
from it, and we obviously follow what others do as well and 
sometimes learn lessons from others.
    Mr. Faleomavaega. What do you consider to be the most 
critical issue for our country, in terms of our relationship 
with Thailand that should never waiver or never be lessened in 
any way? I guess the word ``security'' comes to my mind in 
terms of our relationship with an important country like 
Thailand. How is our security relationship currently working 
with Thailand?
    Mr. Marciel. Our security relationship with Thailand is 
very good. Our military has worked together very well. Thailand 
continues to host annually the Cobra Gold exercise, which, as 
you know, is a very large, multilateral exercise. And overall 
there is extremely good cooperation in many ways on the 
military side as well as on the law enforcement side, including 
with Thailand hosting a regional law enforcement academy which 
plays a very positive role.
    In my view, the most important thing for the United States, 
important as the security relationship is, the most important 
thing for the United States to keep in mind now as Thailand 
goes through this period, we are, as I said earlier, friends 
with the entire nation and all of the people of Thailand, and 
that is something that we need to remember constantly as they 
go through this crisis with different groups debating each 
other.
    Mr. Faleomavaega. It is very interesting to note with 
interest Cambodia, Vietnam, I believe even Laos, their 
principal trading partner right now is China. And I am just 
curious, where does Thailand fall into this?
    Mr. Marciel. Thailand is also a significant trading partner 
for all of those countries. Trade among the ASEAN countries has 
increased at a rapid rate, and with the advent of the ASEAN 
Free Trade Agreement this year, we can expect that to continue 
to increase. I can get you numbers on the trade, but it is 
certainly important, as well as Thai investment in those 
countries.
    Mr. Faleomavaega. Please. And in your capacity also as 
Ambassador to the ASEAN organization, I am just curious, there 
have been recent reports of Myanmar's interest in developing a 
nuclear weapon, and I was wondering if this would have serious 
implications for those countries in Southeast Asia if Myanmar 
seeks to do the same thing like in North Korea. North Korea now 
has eight atom bombs, or something like that?
    Mr. Marciel. We have certainly read with interest the 
recent reports on a possible nuclear initiative by Burma. I 
can't say too much about it in an open hearing, but obviously 
we follow it very carefully.
    I think there are two issues. One is whether there is some 
kind of serious nuclear program in Burma, which certainly would 
be tremendously destabilizing to the entire region. And second 
is also the Burmese acquisition of other military equipment, 
conventional, which also can affect regional stability. So we 
are looking at both of those questions very closely.
    Mr. Faleomavaega. Can you also provide for the record the 
number of Thai Americans we have in our country? Besides Tiger 
Woods.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    According to ``We the People: Asians in the United States,'' Census 
2000 Special Reports, CENSR-17, issued in December 2004, page 1, 
110,850 respondents reported to be of Thai origin. An additional 39,243 
respondents identified themselves as being of mixed Thai heritage. If 
both groups of respondents are included, there were 150,093 Asians with 
Thai heritage in the U.S. in 2000. The 2010 Census figures are not 
available yet.

    Mr. Faleomavaega. Do you know that Tiger Woods is more Thai 
than African American because his mother is from Thailand? I 
don't know how many Americans know that.
    I think we currently have 690,000 foreign students who 
attend American colleges and universities. And the number one 
country is China with 100,000; India with about 90,000. I am 
curious, how many students from the ASEAN countries attend 
American colleges and universities?
    I have always firmly believed this is probably one of our 
most important assets--allowing students from all over the 
world to come and study in America and see America for what it 
is, and to understand and appreciate the institutions and what 
we are striving for. I am just curious if Thailand is also in 
that light in terms of the number of students from Thailand who 
are currently attending our American colleges and universities.
    Mr. Marciel. Mr. Chairman, I absolutely agree that it is 
very much good for the United States, as well as for the 
sending countries, to have students studying in the United 
States. I can get you the numbers for all of ASEAN and for 
individual countries. Thailand is a major--I have the numbers 
here. Great.
    We currently have almost 9,000 students from Thailand 
studying in the United States. Sorry, this is actually from a 
couple of years ago, a few years ago. Thailand, almost 9,000; 
Indonesia, a little over 7,000; Vietnam, 6,000; and China at 
this point 67,000. So that is extraordinarily high. But overall 
for ASEAN, the numbers have been going up. Certainly from 
Vietnam, they have been going up very rapidly. Indonesia, they 
have gone down somewhat, which is a concern for us. And 
Thailand, it is more stable. I can get you all of the numbers.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    According to the 2009 Open Doors report, the numbers of ASEAN 
students studying at U.S. universities and colleges during the 2008/
2009 academic year (the most recent available statistics) are as 
follows:

 
 
 
 
                        Brunei                                                        39
                        Burma                                                        667
                        Cambodia                                                     386
                        Indonesia                                                  7,509
                        Laos                                                          80
                        Malaysia                                                   5,942
                        Philippines                                                4,226
                        Singapore                                                  3,989
                        Thailand                                                   8,736
                        Vietnam                                                   12,823
                        ASEAN Total                                               44,397
 


    Mr. Faleomavaega. This is a program that our Government 
should engage in--to encourage and bring students from the 
ASEAN countries to study in our colleges and universities.
    Mr. Marciel. We do have a number of programs, Fulbright 
obviously, but other programs that provide scholarships or 
otherwise encourage students from ASEAN to study in the United 
States. We are always talking about how we can do more. In the 
President's planned trip to Indonesia, looking at how we can 
encourage more Indonesian students here is a big priority for 
us. So, yes, it is something that we should be doing.
    Mr. Faleomavaega. It is my understanding that the 
President's trip to Indonesia has been cancelled again. Is 
there any indication when he might be doing this in the coming 
months? This is three times now that he has cancelled the trip.
    Mr. Marciel. He has postponed the trip, Mr. Chairman, I 
believe, because of the environmental crisis in the Gulf of 
Mexico, but still intends to go, but there is not a new date 
set yet.
    Mr. Faleomavaega. I note with interest during the 
Presidential campaign there was a national blog that said that 
I, humble me, was specially appointed as an agent of Barack 
Obama to go to Indonesia, which I did. I went to Indonesia to 
go to the school that he attended, to make sure that there was 
no indication whatsoever that Barack Obama was born in 
Indonesia. Say hello to the birthers for me on that.
    But at any rate, Mr. Secretary, thank you very much for 
your patience and good humor in seeing this through. I do want 
very much to do all we can, at least as Members of Congress, to 
be as helpful as we can to the people and good leaders of 
Thailand.
    Did you want to add any more to your statement?
    Mr. Marciel. Thank you, Mr. Chairman.
    Only that the administration view is exactly the same. The 
United States wants to do all we can to help our friends in 
Thailand get through this, and we hope the administration and 
the Congress can work together in support of the Thai people 
and----
    Mr. Faleomavaega. And the administration is supportive of 
the five points outlined by the Prime Minister in May?
    Mr. Marciel. That is right, Mr. Chairman, we are.
    Mr. Faleomavaega. Thank you, Mr. Secretary, and thank you 
for coming.
    Mr. Faleomavaega. We have some good experts here on our 
next panel. Our second panel includes Dr. Karl Jackson, Dr. 
Richard Cronin and Ms. Catharin Dalpino.
    Dr. Jackson is the director of the Asian Studies program at 
the School of Advanced International Studies at Johns Hopkins 
University. A C.V. Starr distinguished professor of southeast 
asian studies, he also serves as the director of the Southeast 
Asia Studies program at the SAIS. Until 1991, he was professor 
of political science at the University of California, 
Berkeley--go, Bears--where he began teaching in 1972.
    Dr. Jackson served as the National Security Adviser to the 
Vice President from 1991 to 1993. Prior to that he was Special 
Assistant to the President for National Security Affairs, and 
was also senior director for Asian affairs at the National 
Security Council. Mr. Jackson served as a Deputy Assistant 
Secretary of Defense of East Asian Affairs. He also was the 
president of the U.S.-Thailand Business Council. He has written 
several books and is very much up to date on the situation in 
Thailand.
    Professor Dalpino is a former diplomat, scholar, 
international organizations professional staff member and 
program manager of an NGO. She has been a university professor 
for over 10 years, teaching courses in international relations, 
human rights and democracy promotion, politics and security and 
international relations in Southeast Asia.
    Ms. Dalpino was Deputy Assistant Secretary of State for 
Democracy, Human Rights and Labor for 5 years, where she had 
special responsibilities for U.S. policy in China, Indonesia, 
Burma, Bosnia, Haiti and Rwanda. She also led the U.S. 
delegation to the Group of 24, which coordinates democracy 
promotion assistance to Eastern Europe. Prior to joining the 
State Department, Ms. Dalpino was a policy analyst for the 
World Bank and an officer at the Asia Foundation, where she 
served as the Foundation's resident representative for 
Thailand, Laos and Cambodia.
    In 1997, Ms. Dalpino became a fellow at the Brookings 
Institution, where she researched and wrote on U.S.-Asian 
relations for 7 years. During this time, she taught at 
Georgetown University, Johns Hopkins University School of 
Advanced International Studies and also George Washington 
University. She has also directed projects on U.S. Relations in 
Southeast Asia for the Stanley Foundation, on Agent Orange in 
Vietnam for the Aspen Institute and on U.S.-Cambodian relations 
for The Asia Society. She has written three books on U.S. 
policy toward Asia.
    Dr. Richard Cronin is a senior associate and director of 
the Southeast Asia program at the Stimson Center, a nonprofit 
organization dealing with foreign security policy, in 
Washington, DC.
    Dr. Cronin currently works on transboundary and 
nontraditional security issues in the Mekong Basin and 
Southeast Asia from a political economy perspective. He has 
written and coauthored several articles on Thailand's regional 
relations and the political crisis that culminated in the May 
19 violence for the Stimson Foundation's home page. He is also 
lead and coauthor of several books. My gosh, I can go on and on 
here.
    He has taught comparative Asian political economy at Johns 
Hopkins and Chuo University in Tokyo, and was also a Vietnam 
veteran intelligence officer in the U.S. Army 1st Infantry 
Division in 1965 and 1966. I was there 1967 and 1968, so you 
left before I came.
    I want to thank you very much for your presence and coming 
here to testify to the subcommittee.
    If I may, I would like to give the honor to Professor 
Dalpino for her opening statement.

   STATEMENT OF MS. CATHARIN E. DALPINO, VISITING ASSOCIATE 
  PROFESSOR, ASIAN STUDIES PROGRAM, EDMUND A. WALSH SCHOOL OF 
             FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Ms. Dalpino. Thank you, Mr. Chairman.
    Mr. Chairman, my views on this topic today are informed by 
living and working in Thailand over a span of three decades and 
my present work as director of Thai studies at Georgetown 
University, but I haven't focused my statement on the very rich 
history of U.S.-Thailand relations. I would like to focus very 
specifically on the current state of the reconciliation process 
in Thailand and what it might take to put that process on 
firmer ground.
    Mr. Faleomavaega. Without objection, all of your statements 
will be made part of the record. If you have any added 
materials, things to add, we are happy to receive them.
    Ms. Dalpino. Mr. Chairman, it has been frustrating to some 
of us who follow Thai affairs to watch the coverage over the 
past few years in Thailand, because I think in particular the 
international community is sometimes given to what I would 
describe as the myth of monoliths, of being able to parse this 
crisis into Red Shirt versus Yellow Shirt, rural versus urban, 
rich versus poor, even authoritarian versus democracy. I am 
afraid that if this kind of dichotomy continues, it is going to 
stigmatize a large group of people and lionize another large 
group of people on any given occasion, and it is important in 
the reconciliation process to move to a more nuanced view of 
this crisis. So I thank you very much for these hearings and 
for your interest in this topic.
    I would say at the present time Thailand is suspended 
somewhere between the crisis and normal political life. I share 
your interest and your support for the five-point 
reconciliation plan. I think, however, as that plan goes 
forward, many Thais, particularly those who were in opposition, 
will look at a number of other things as well to see if the 
government is going to be able to forge a genuine 
reconciliation. And they will look particularly at whether 
treatment of several issues is evenhanded.
    Here are some indicators. I think they will look at due 
process for the UDD leaders and demonstrators under arrest. 
This will be a good opportunity for the government not only to 
show adherence to the rule of law, but also moving to a new 
kind of political balance.
    They will look at the length of the emergency rule period 
which is currently in operation and this week was renewed for 
another month. Certainly that is part of restoring order to 
Thailand, but as that--but as the need for that begins to wane, 
I think there will be attention to when emergency rule is 
lifted and in what sequence, particularly when it is lifted in 
the north and the northeast, which is where Thaksin had a great 
deal of political strength.
    I am heartened that the Prime Minister is committed to an 
investigation of the casualties incurred on both sides during 
the recent crisis. I think there will be close attention to who 
is appointed to a commission and what kind of balance that 
represents.
    And lastly in the short term, I think the timing of 
elections is a very, very difficult issue. Obviously, elections 
in the shortest possible term would help to restore democracy. 
But I have to say in all candor that there is a danger that if 
elections are called too soon, and not sufficient 
reconciliation has been achieved, that whatever the outcome is, 
it could restart a cycle of violence if the losers are not 
prepared to accept the outcome of the democratic process. And I 
think in our own representations and recommendations to our 
Thai colleagues, I think we have to remember how very, very 
complicated even just the timing of the election will be at 
this point in time.
    Even if managed skillfully, I think the initial stage will 
not automatically ensure long-term political stability in 
Thailand, and I would like to point out three issues which have 
been very much at the center of Thai political development. One 
is addressing the center-province dynamic. It is true former 
Prime Minister Thaksin brought to light many issues of rural 
versus urban. In truth, the Thai system has been centralized 
historically. It still is, but there have been attempts to 
decentralize. I don't think just transferring funds to the 
rural area is going to do it. I think there is also an issue of 
transferring some degree of political power, and that will take 
quite a long national discussion.
    Also, adhering to the rules of the political game in a 
democracy is something that the Thais will have to consider and 
to work on quite a lot, particularly in a parliamentary form of 
government. And again, what we have seen with the cycles of 
violence and retribution with the Yellow Shirts versus Red 
Shirts, when one side does not get an outcome they want, they 
want to pull the whole system down. And working toward a 
political culture that allows for loyal opposition and 
acceptance of the democratic process will be very important.
    Traditionally, Thai governments are coalition governments, 
and I think there are some good reasons for doing that, but 
that actually doesn't help this idea of accepting an outcome if 
you can negotiate some of the aspects after election. That is 
just to flag that issue.
    Lastly, I think we will see another round of constitutional 
revision and reform, and that is good. I think there are 
particular issues in the current Constitution that Thailand 
might look at, including the clause that abolishes the 
political party if a party member is convicted of electoral 
fraud.
    When he came into office, Prime Minister Abhisit flagged 
that and tried to get the parties to discuss either revising or 
abolishing that, because it really is a nuclear option, and it 
was behind a great deal of the discontent in the UDD with the 
dissolution of Thai Rak Thai and the People's Power Party. But 
beyond specific constitutional revisions, I think that 
strengthening the Thai sense of Constitution will be important 
as well. Thailand has had 17 Constitutions since it became a 
constitutional monarchy in 1932. And forging a Constitution 
that can be revised as need be but still remain will be 
important.
    There are two major wild cards that could affect the 
reconciliation process. And one would be transitions in the 
monarchy, both in the palace and in the Privy Council, which 
might come naturally and might have been expected for some 
time, and also the issue of Thaksin's continued impact on Thai 
politics and the calculation of how much is gained or lost by 
having him inside or outside of the country, inside or outside 
of the tent, is something clearly that not only this government 
but other parts of the Thai system will have to consider.
    Let me talk very briefly about U.S.-Thailand relations and 
what the United States might do at this point in time. I agree 
with everything that Secretary Marciel said about the 
importance and the salience of U.S.-Thai relations and I think 
that the United States has a stake in helping to strengthen 
Thai democracy and supporting the return to stability. But it 
has to do so with some thought and restraint. And in contrast 
to some countries in the post-Cold-War world that had 
significant international involvement in the democratic process 
of their democratization Thailand's democratization is very 
much of its own making. And it has welcomed support from the 
international community as a support, not as a leading factor.
    I have no reason to believe that they would not welcome 
support, but I think it has to be very skillful and somewhat 
indirect. I also do think that it is very important that any 
democracy assistance that the United States or U.S. 
organizations that are not governmental that be rendered at 
this point in time be perceived as being nonpartisan in terms 
of the Thai political factions.
    A second thing that I think the United States could help, 
if Thailand so desires this assistance, is helping to break the 
cycle of impunity that we have seen not only with the Red 
Shirts but with the Yellow Shirts--going back to the time in 
August 2008 when people broke into the Prime Minister's 
residence and chased him to the airport the VIP lounge of the 
airport--that both the Yellow Shirts and Red Shirts have 
conducted themselves as they have because they believe that 
they could, and that developing a strong, accountable, 
effective security force is actually part of a democracy, 
because you will have public demonstrations. You should expect 
to have them, even welcome them as part of democracy and not 
see them as a crisis every time they are brewing.
    Our relationship on the security side has obviously focused 
on military, has not focused on police reform, but I think that 
there might be an opportunity to do so if Thailand believes 
that that is desirable.
    Lastly I think that we can help our Thai interlocutors by 
engaging them in what I would call ``beyond the crisis 
thinking'' and drawing them out in terms of our security, 
economic and cultural relations, and not waiting for that to 
happen automatically but reaching out to them. That will help 
to restore a sense of normalcy and help to regain, help 
Thailand regain momentum in the international community.
    Let me end with a regional postscript. I find it very 
interesting that Vietnam, in its capacity as chairman of ASEAN, 
2 weeks ago issued a statement on the situation in Thailand 
that was supportive of Prime Minister Abhisit's government, but 
also commented that Thai stability is very important to 
Southeast Asian regional stability and offered, as a group, 
ASEAN to help Thailand. That is fairly unprecedented. ASEAN has 
issued some statements on Burma under international pressure, 
but I think that this is an encouraging sign for ASEAN as well, 
and might be followed up on.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Dalpino follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you Professor Dalpino.
    We are also joined here by another distinguished member of 
our subcommittee, the gentlelady from California, Dr. Watson, 
former Ambassador to the Federated States of Micronesia, and we 
welcome her.
    Diane, did you have an opening statement you wanted to----
    Ms. Watson. I did. I might be a little late because I think 
that the professor probably has mentioned all those things. But 
let me just reiterate some of what was said. I would like to 
really thank you, Mr. Chairman, for holding this hearing on the 
situation in Thailand. And in my experiences in the Far East, I 
was very, very upset over the situation in Thailand. I remember 
going there in the early sixties, and it was such a historical 
trip for me and such a peaceful, wonderful trip back to the 
``King and I.''
    By the way, I ended up doing that whole presentation when I 
was teaching in Okinawa because I love the culture so much and 
I trained my students--I had a gifted class and I trained them 
to play those roles. And so I just really fell in love with the 
Thai culture.
    So I have been very concerned, with what happened this past 
March with the red-shirt protesters occupying the streets of 
Bangkok for all of 9 weeks, and probably more, and at first 
these protests seemed to be peaceful; however, as the weeks 
progressed, clashes between the Red Shirts and the security 
forces escalated into urban warfare and by mid-May, 88 people 
had been killed and thousands wounded.
    The Red Shirts took to the streets in support of their 
ousted leader, Thaksin, and to demand an earlier election. 
Though the current Prime Minister offered a plan that would 
allow for early elections in return for an end to the protests, 
reconciliation still seems elusive.
    This morning the full Committee on Foreign Affairs led a 
hearing about human rights and democracy. Thailand is an 
important lesson in democracy building. Thailand has long been 
one of the brightest stars in Asia and one that saw economic 
and democratic progress throughout the nineties. However, since 
the military coup in 2006, which ousted the PM, tensions 
between the Red Shirts and the Yellow Shirts have been 
increasing.
    The fundamental divide between the two groups centers on 
the electoral process, with the Yellow Shirts arguing that 
ethical imperatives trump the polls, while the Red Shirts 
believe that governance should be determined entirely by the 
population's vote.
    Many Thais are looking to the reigning monarch for support 
and a decision that will reduce the division between these two 
groups. The King, however, has been been ill and has not 
offered guidance in the situation as he has in the past. His 
son, the Crown Prince, is not seen as the leader his father 
once was, causing increased discomfort among the Thai populace.
    Thailand is standing at a crossroads, one whose road signs 
are confused by the political environment. And I don't know if 
reconciliation is necessary. We can't let the people of 
Thailand fall into a civil war without offering our help.
    And I missed most of the testimony. I understand we were on 
the second panel, Mr. Chairman, but I certainly want to learn 
more about what you would suggest our best action should be.
    And as I mentioned our hearing that we had in International 
Relations, we are looking at all of our foreign policy programs 
and how best to assist these countries. And I always have to 
remind our side of things, is that these are sovereign nations 
and that what we do is we build from the ground up. We cannot 
go in there and tell the people, but we can encourage them to 
look at democratic policies.
    So I would like to hear from the panelists. And I did hear 
what the professor was saying when I came in, as how you would 
direct our country, our USAID programs, millennium programs and 
so on, to assist the Thais and particularly those who are not 
comfortable with their government the way it is, and just how 
we can best assist in these circumstances.
    Mr. Faleomavaega. I will say to the gentlelady that she has 
a very formidable understanding of the situation in Thailand. 
We had Secretary Marciel testify earlier, who pretty much 
corroborated your testimony. So you did not miss much.
    Ms. Watson. Well if I had time, Mr. Chairman, if we could 
just hear--start with Dr. Jackson, and then the professor and 
Dr. Cronin.
    Mr. Faleomavaega. All right, Dr. Jackson would you proceed, 
please?

STATEMENT OF KARL JACKSON, PH.D., DIRECTOR OF ASIAN STUDIES AND 
 SOUTH EAST ASIA STUDIES, THE PAUL H. NITZE SCHOOL OF ADVANCED 
                     INTERNATIONAL STUDIES

    Mr. Jackson. Yes. First of all it is a great pleasure to be 
back in front of the committee. Twenty years ago I used to 
testify in front of this committee when I was in government, 
Steve Solarz would really regularly give me a thrashing, and we 
both became good friends and colleagues as a result and remain 
so until this day.
    Given that my statement is already part of the written 
record, I would make only three or four short points given the 
hour and the fact that there may be some votes.
    The first point I would make is that the demonstrations we 
have witnessed in Bangkok over the last several months are a 
by-product of an ongoing set of socioeconomic and political 
changes that been taking place for the last 30 years.
    The rise of upcountry political movements really began in 
the 1970s and the 1980s. Thaksin didn't cause this movement of 
upcountry. He simply sensed it better and rode it more 
competently than anyone else had before.
    Thaksin's money and his political savvy mattered, and his 
personal charisma helped, but the upcountry movement to obtain 
a larger slice of the pie is here to stay in Thailand.
    The second point I would make is that a large number of 
upcountry people, especially from the lower part of the 
socioeconomic structure, have developed an emotional 
identification with this man, Thaksin Shinawatra, which will 
not wear off simply because the Government of Thailand puts in 
place Thaksin-like policies.
    Many people seem to feel that one of their own was 
illegally displaced by a military coup and that their votes 
have been repeatedly nullified by a Bangkok-dominated court 
system.
    Now it does not matter whether these perceptions are 
factually accurate. What really matters is that these feelings 
of alienation exist, are widespread, and constitute the 
fundamental political problem facing Thailand at this time.
    The third point I would make concerns reconciliation, the 
process about which the chairman, Scott Marciel, and Professor 
Dalpino have spoken. Reconciliation will take time. But it must 
involve a genuine willingness on the part of the government to 
collaborate with the opposition. Meetings with academics, with 
journalists, with thinkers, all of these being representatives 
of Bangkok domination, are not the same as seeking 
reconciliation directly with the leaders of the red-shirt 
movement.
    Jailing and labeling the Red Shirts as terrorists will 
drive this mass movement underground, I fear. Like the chairman 
I am a member of the Vietnam generation which saw many 
insurgencies around Southeast Asia. This is the last thing that 
any of us want and I'm sure it is the last thing that the 
Government of Thailand would want, but it is something we must 
be concerned with.
    The fourth point I would make echoes very much the comments 
of Catherin Dalpino, even though we didn't actually talk about 
this ahead of time. Elections alone, even early elections, are 
not enough. A complex of series of political deals needs to be 
worked out among competing elites to reestablish trust and 
legitimacy for whatever government results from the next 
election. The parliaments of the streets, represented by the 
Yellow Shirts and the Red Shirts, must somehow be brought back 
into the legal Parliament itself. The critical imperative is to 
get politics off of the street and back into legal 
institutions.
    The best of all possible outcomes might well turn out to be 
a government of national unity involving all the major 
political parties.
    And lastly, and again echoing my colleague, Professor 
Dalpino, the legitimacy of Thai judicial and law enforcement 
institutions depends on making them even-handed and apolitical 
and perceived as such by most of the people of Thailand.
    Thank you very much Mr. Chairman.
    [The prepared statement of Mr. Jackson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you Dr. Jackson.
    Dr. Cronin.

STATEMENT OF MR. RICHARD CRONIN, SENIOR ASSOCIATE, THE HENRY L. 
                         STIMSON CENTER

    Mr. Cronin. Thank you Mr. Chairman, Congresswoman Dr. 
Watson.
    Thank you very much for this opportunity to testify at what 
I think is a very well-named titled hearing, this emphasis on 
reconciliation, path to reconciliation, that my colleagues have 
already been discussing. And to echo both of them, I mean this 
is really a major challenge and we have already heard some 
reasons why that is so.
    I am going to take a slightly different tack in my 
presentation, and that is that I am going to come at this issue 
somewhat from a more political economy way, if you would; that 
is, some underlying reasons that go even deeper than political 
developments. And one of these really is fundamentally the 
inability of the political system, which has been changing and 
adapting over time, to adapt to the impact of globalization and 
rapid economic growth that left some parts of the country 
behind.
    I would make the point that Thailand has trebled its GDP in 
the last 20, 30 years; and its poverty index, rate of poverty 
has dropped from the thirties and forties to under 10 percent 
recently. Things are a little tougher now because of the 
financial crisis. And so all the boats have been rising, but 
they haven't all been rising as fast. So that is one, I think, 
important point.
    And on the other hand, Thailand--so Thailand has really 
benefited from globalization in many ways. It has got a key 
geographic location, it has enjoyed large-scale manufacturing 
investment by Japanese, American, European companies, and has a 
relatively well-educated population. I mentioned national 
income tripled in the past two decades.
    But on the other hand, Thailand was really the cause and 
the poster child, if you will, of the 1997 financial crisis. It 
was when Thailand's balance of payments got too far out of 
whack, that they could not sustain the value of the baht, that 
they were established against the dollar. And that led not only 
to collapse and great chaos in financial and economic chaos and 
even social chaos in Thailand, but it also created a deep 
resentment against some aspects of globalization and 
particularly against the IMF's prescription, which is quite 
wrong, of belt-tightening rather than actually measures to 
stimulate the economy to keep the GDP from falling too fast.
    And in some ways the democrats in Thailand have been 
associated with that IMF medicine, and the Prime Minister, 
Thaksin, and the past former Prime Minister never left them or 
the other people forget it.
    There is also an issue that both my colleagues have raised 
one way or another, and that is an attitudinal problem between 
Bangkok and the rural areas, or upcountry, as Karl Jackson put 
it. And that mindset is evident in many ways. It is certainly 
greatly perceived by Thais outside Bangkok, particularly in the 
north and northeast, as a kind of sophisticated-urbanites-
versus-country-bumpkins kind of attitude. And this has come out 
in ways that have been harmful to Thailand.
    For instance, we have heard reference to the 1977, sorry, 
1997 Constitution, and that Constitution aimed in a number of 
ways to eliminate revolving Cabinets but also to put 
educational requirements in place for membership, for running 
for legislature. It tried to create a strong Cabinet, a strong 
Prime Minister, and in many ways you could say it was a little 
bit of an elitist approach or an academic approach to 
Constitution making. And it backfired in a way.
    Prime minister Thaksin came in and took advantage of all 
those provisions and, as we already heard, was able to mobilize 
a huge electoral base in the north and northeast of Thailand, 
and particularly the issue of this emotional connection that 
Karl has mentioned is very important.
    Just a couple of points I would make. One is that much has 
been made of the fact that the army overthrew the democratic 
elected Thaksin government, but not enough attention has been 
given to the fact that constitutional changes practically made 
it impossible for Thaksin to be dislodged by constitutional 
means. So once he won the second election in 2005 by a huge 
margin, and then got in trouble over this Shin Corporation sale 
to Singapore's Temasak Holdings Company, a sovereign holding 
company, he called for a snap election. The whole business of 
Shin had been a little too much for the population to take, 
even going beyond his enemy, his core supporters.
    And so he called a snap election in which members could 
not, you could not form a party less than 90 days before the 
election. He called it in a shorter period than 90 days, and it 
wasn't possible for them to rename their party, to form 
coalitions, or even to attract members from Thaksin's party 
into a different opposition party.
    And that is why they took to the streets, first the Yellow 
Shirts; and then, of course, eventually the Red Shirts emulated 
the Yellow Shirts for some of the same reasons, although the 
government had changed.
    So I am trying to emphasize that there are some structural 
issues and some accidents that are partly substantially 
connected to rapid economic change, globalization, et cetera, 
but also rooted in some attitudes between Bangkok people and 
the rest of the country, particularly the northeast.
    I think in terms of looking to the future, Prime Minister 
Abhisit had already made a number of I think very successful 
moves, and one is that he survived an attempted censure and no-
confidence vote in the lower house of Parliament.
    And one of the interesting things about that is that there 
were fewer votes against him than the total number of 
opposition members in the Parliament. So it would appear that 
he has made some inroads there, and he also has a very high 
approval rating, around 70 percent right now. And that has 
taken over most of the provinces, and it would seem that it 
would include a number of the provinces where the Red Shirts 
are prominent as well.
    He has promised to hold new elections and this has actually 
been postponed until next year. And the main reason, as we 
already heard I think, is that if we had another election, 
Thailand had another election marred by violence, it would be 
kind of even a bigger disaster than where we are right now. But 
at the same time, there has to be an election and there has to 
be the perception of legitimacy of whatever government is 
installed following that.
    To pile on in a way, but one thing that will not likely 
achieve reconciliation is demonizing Thaksin. Thaksin is a 
force to be reckoned with. He is a crook. He not only was a 
crook but he was a human rights abuser. He conducted this anti-
narcotics campaign war on drugs for 3 months in 2003 where more 
than 1,000 people allegedly were killed, either in shootings on 
the streets, by the police and other security authorities, or 
died in jail having been beaten to death. And this is pretty 
well-documented in the human rights report that the State 
Department prepares every year--for that year, in which case 
was 2003.
    Reconciliation is very important to the United States. 
Thailand is very important to the United States. And Thailand 
is a middle power with whom the United States has robust 
relations and a broad agenda. A treaty ally, Thailand provides 
important cooperation against terrorism and posts the annual 
Cobra Gold gold multinational combined joint military 
exercises, as we have heard. And those were held, actually, as 
recently as February of this year.
    Bangkok is also a regional hub for USAID. We have a 
regional office there for our activities, our aid programs, and 
of course a major center for U.S. corporate investment.
    To conclude, what I would like to say is that the main 
thing the United States can do now is to promote reconciliation 
or to help promote reconciliation is to maintain constructive 
relations with the Abhisit government and support appropriate 
efforts to rebalance the economy in ways to promote more 
equitable development.
    This is a tough assignment right now because of the global 
financial crisis which is requiring a kind of unwanted 
rebalancing of economy in favor of domestic growth rather than 
export-led growth.
    In this context, though, probably the single most important 
thing the administration and Congress can do is to reject 
overly simplified explanations for the crisis and recognize 
that given Thailand's constitutional complications, moral 
support for the Abhisit government does not represent a 
compromise with U.S. democratic values and ideals. I think that 
is a very important point.
    Thailand has had a tumultuous political history, as we have 
heard already. But it is also a very resilient country, and it 
is a country that values its long, sometimes interrupted, path 
toward a more participatory and more democratic system. Thank 
you.
    [The prepared statement of Mr. Cronin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Dr. Cronin.
    Congresswoman Watson for her questions.
    Ms. Watson. I really want to thank this panel for the 
insight you share with us. And I am wondering, what is the 
impact of the turmoil in Bangkok? What does it mean to that 
entire ASEAN region? What impact will that have? And look at 
it, too, in terms of tourism. That was a place that was a 
destination for a lot of us, and now when you see the pictures 
on TV, it certainly wouldn't attract a whole lot of tourists 
probably anytime soon.
    So can you comment on the political impact in the region 
and what you see in terms of business trade tourism?
    Mr. Jackson. I would say that what is remarkable about 
tourism is that it seems to be extraordinarily resilient. Even 
given the events of this past May, apparently occupancy is back 
in the high thirties already in the Bangkok hotel system, and, 
of course, it is quite large and robust in places like Phuket. 
Obviously Thailand has been hurt and its tourism image has been 
hurt. But I guess Thailand is such an attractive place--as you 
found, and I did approximately at the same time--it seems to be 
slowly rebounding.
    Now, the second thing you asked was about the political 
impact regionally. I think ASEAN has as its absolute 
fundamental starting principle, noninterference in the domestic 
affairs of other countries, other members of ASEAN. And I think 
ASEAN will maintain this principle.
    However, ASEAN as an organization functions mostly behind 
closed doors and at dinner parties and on golf courses, and I 
am sure that there will be quite frank talks and expressions of 
concern by almost all of the ASEAN countries about Thailand 
becoming, not the rock of stability, but a source of 
uncertainty in the region. And so I am sure Prime Minister 
Abhisit and Foreign Minister Kasit will hear this from their 
colleagues, and I am sure each of those gentlemen is doing as 
much as they possibly can to try and get Thailand beyond this 
very difficult juncture in history.
    Ms. Watson. Thank you. Professor.
    Ms. Dalpino. First, Congresswoman, let me tell you that my 
first direct experience with Thailand was also in the early 
sixties and I understand completely why you fell in love with 
it then. I did too.
    Let me address a couple of points. Thailand is a regional 
hub logistically in terms of transportation, and that is very 
important. Had that really been withheld for any significant 
amount of time, I think the whole region would have suffered, 
not just Thailand.
    Thailand has been important to our relationship to ASEAN. 
The Thais have tended to be very much a promoter of more U.S. 
involvement in the region and regional organizations. They will 
be very forward-leaning about supporting more of an Asia 
Pacific community and looking for ways to include the United 
States in the regional framework. And so that is a very 
important partnership.
    I agree that I think that the ASEAN states were somewhat 
dismayed by the events. What I worry about is that there are 
two ASEAN states, well three, but the two oldest democracies in 
ASEAN are the Philippines and Thailand. And both of them in 
their different ways are struggling with the process of 
consolidation, which is much more difficult than just entering 
into a democratic transition. Indonesia's democracy is still a 
little too young to make these sorts of generalizations, and my 
fear is that what Thailand and the Philippines have gone 
through in recent years, different experiences, will slow down 
the democratic processes in other countries in the region.
    But lastly, let me also say that I think there is an 
opportunity here, and I ended my statement, my testimony, by 
talking about this statement that ASEAN did issue about 
Thailand, which is fairly unprecedented, and one of the reasons 
they were able to issue that is that the ASEAN Secretary 
General is former Thai Foreign Minister Surin Pitsuwan. He was 
Foreign Minister in the late nineties when he tried to persuade 
ASEAN to move to something called ``flexible engagement'' which 
would give ASEAN more involvement in the internal affairs of a 
member state if it affected the whole group. And it is sort of 
exquisitely ironic that this situation is going to pass, and 
that I think that Secretary General Surin is probably 
encouraging ASEAN to step up to the plate on Thailand and 
hoping perhaps to change the paradigm of the group just a 
little bit.
    Mr. Cronin. If I could add just something to that, more 
from the geopolitical point of view, and that is that one of 
the things we haven't talked about--because it is not a hearing 
on China--is that China is a big factor here in the region. And 
the United States, particularly the Obama administration, has 
made a decision to reengage with Southeast Asia, with ASEAN, 
and particularly in the Mekong region of which Thailand is a 
hub.
    Thailand has welcomed and facilitated our efforts at 
reentry into the region. A senior Thai official told my 
colleague Tim Hamlin and me last summer that Thais recognize 
the move is geopolitical and they welcomed it. And this is, I 
think, a good indication of the political relationship. And at 
the same time Thailand doesn't want to be nor do its neighbors 
want to be caught in any kind of struggle for influence between 
the United States and China.
    But that is really not what it is about. I think it is a 
question of how the regional economies will develop, what their 
core will be, and what the relationships--political 
relationships that will come out of that.
    So Thailand is a very important country. In ASEAN there are 
two countries that are kind of the poles of strongest 
influence. One is Thailand and the other is Indonesia; and 
presently, they are on the same page, if you will, with most of 
the issues that concern the United States.
    Ms. Watson. Thank you so much and I yield back, Mr. 
Chairman.
    Mr. Faleomavaega. Thank you.
    Professor Dalpino, I note with interest in your statement 
you noted that Thailand has had 17 Constitutions. My gosh. And 
it seems that every time there is a coup they change their 
Constitution. So the Constitution is not taken in the same 
perspective as we have. We still have only one Constitution and 
rarely amend it in terms of whatever the--however the pendulum 
swings in terms of our own political development and all of 
that.
    And I also note with interest is that maybe this is the 
reality. You said that the road to reconciliation in Thailand 
is not likely to be smooth in either the short or long term. 
That is about as realistic as you can get. So does this mean 
also, in your best opinion, that the future of Thailand right 
now is, at a very, very serious crossroad where it could go 
either way?
    And I also note that the situation with the Royal Family is 
a big factor. It is my understanding that the Crown Prince is 
not exactly well-loved by the people of Thailand, but his 
sister, I think the oldest of the princesses, seems to be very 
well loved by the Thai people. The Crown Prince is likely to be 
the heir to the throne if something happens to His Majesty. 
Could that be a critical factor in the future of Thailand's 
situation, politically?
    Ms. Dalpino. Thank you, Mr. Chairman. First of all, I don't 
really think there will be a succession crisis. Thailand 
follows primogeniture in the monarchy. And so from the very 
beginning the Crown Prince, the only male, was the heir 
apparent.
    It is true that--and some of my colleagues might want to 
correct me on the exact history--that in the Privy Council 
there was a provision that would enable Princess Sirinhorn to 
take the throne if her brother could not serve. That regulation 
went into effect before the Crown Prince had a legal male heir. 
So I don't know what the status of that would be.
    But I think that whatever the next generation would hold 
for Thailand, I think it would be a shock to have the world's 
longest reigning monarch, who was in many ways a modernizer, 
pass from the scene. And I think even among the best of times, 
that would be a major adjustment for Thailand.
    To answer the first part of your question, I have a lot of 
faith in Thai resilience and the Thai ability to compromise. I 
am a little alarmed that the situation has almost gotten beyond 
that. But my wanting to point out that there are both short- 
and long-term dangers is to sort of alert the committee to the 
fact that things could take a sharp turn for the negative at 
any point. And I think it will be many years before Thais feel 
that politics are on firmer ground.
    Mr. Faleomavaega. Dr. Jackson, I note with interest your 
very broad stroke of the brush in terms of how Thai society has 
evolved. And basically there seems to be the Bangkok urban rich 
people versus the rural areas. How does that relate to the 
population? Do the majority of people in Thailand live in urban 
areas; are they in urban city areas like Bangkok?
    Mr. Jackson. The fundamental problem of Thai politics is 
that most of the money is in Bangkok and most of the votes are 
outside. And that is a fundamental tension in the political 
system that has grown more intensive over the last 20 years. 
Several of the constitutional changes have really been designed 
to try to modulate this but it will continue to be a source of 
difficulty unless and until--in my opinion--and this is only my 
opinion--unless and until some pretty fundamental 
decentralization takes place whereby if people were 
dissatisfied upcountry, they might petition their local 
government or their provincial government rather than going to 
the streets of Bangkok.
    And so in my own view, one of the things that might 
conceivably help with long-term reconciliation would be 
decentralization because the Bangkok system, that is, the Thai 
system, has always been a very centralized kingdom, and the 
whole thrust of modernization in the 20th century was to 
centralize and bring power to the center. And it seems to me 
one way to buy political space is to reverse this process at 
least partially.
    Other big cities like Chiang Mai could conceivably have 
their own elected Governor as Bangkok now does. This is one 
possibility.
    Mr. Faleomavaega. Is it your view that one reason why 
former Prime Minister Thaksin identified so well with the 
lower-income class people in the rural areas is because he 
probably did more than any previous Prime Minister to really 
help the lower-income people in the rural areas? Does that seem 
to be why there was such a close relationship between the 
people of the rural areas and Thaksin, despite the fact that he 
is a rich person?
    Mr. Jackson. An enormously rich person. There are two 
aspects of it. One is that his government did do more for 
upcountry Thailand than other previous governments had done.
    Mr. Faleomavaega. That is a fact.
    Mr. Jackson. That is a fact. He not only promised to do 
something, he did the unforgivable. He delivered on his 
promises after he was elected.
    But the second aspect is the one that I think is the more 
critical; that is, he turned his own personal narrative of rags 
to riches into something with which many people who are poor in 
Thailand identify. This is a guy who, when his father died, had 
no inheritance; his family lived upstairs from the family 
coffee shop. When he came to the States he worked in a Kentucky 
Fried Chicken place to pick up money. Not only are there 
certain facts to this story, I am sure that on the stump, 
although I have never heard him on the stump, he can embellish 
this story in quite remarkable ways. And a lot of people 
identify with that rags-to-riches story, and Thaksin's goal was 
that he was going to abolish poverty in Thailand. That is what 
he said his goal was.
    Mr. Faleomavaega. I note with interest, Dr. Cronin, you 
said the problem with Thailand is this fundamental attitudinal 
issue, to which Dr. Jackson has alluded. Here is a fellow who 
goes from rags to riches to becoming Prime Minister. He reached 
out to the lower-income people and gave them hope. They think, 
if he can do it, I can do it too. And, as Dr. Jackson said, he 
delivered on his promise to help the people in the rural areas.
    He mentioned that it seems that the government has 
demonized Prime Minister Thaksin's problems, his human rights 
abuses and drug trafficking. Does that really go over well in 
the rural areas, the people that seem to have such a strong 
affinity or devotion to him because he was able to identify 
with them more so than the rich and the people of means, of 
affluence, living in Bangkok?
    Mr. Cronin. Yes. That is a very good point, an interesting 
point. I think that those of us who look at Thailand and try to 
figure out what is going on shouldn't lose sight of the fact 
that Thaksin's sins were not as criticized in the rural areas 
as in the cities. But there is also this contradiction that 
everybody in Thailand, including Bangkok people, many, many 
people anyway, supported his anti-narcotics campaign. It just 
got a little sticky when, say, if you are a middle-class 
professional Thai and you look over the balcony from your 
apartment or your condominium and you see a corpse lying in a 
pool of blood in the street who is alleged to have been 
involved in drugs.
    Mr. Faleomavaega. Would you say that those people involved 
with drug trafficking could have been from affluent 
backgrounds?
    Mr. Cronin. Probably not. Maybe the users, like here, are 
from a more affluent society, but drugs have permeated much of 
Thai society.
    Mr. Faleomavaega. We have got a similar problem here with 
Latin America. The Latin American leaders complained to us that 
if there wasn't such a tremendous demand for drugs in America, 
maybe we wouldn't have drug problems. Not so much those who are 
using the drugs, but rather those who are trafficking it.
    Mr. Cronin. The real point is one you mentioned at the 
beginning of this particular exchange, and that is that, again, 
whatever Thaksin's flaws and failings, which are widely 
recognized, there was still this attitudinal issue that for 
whatever reason, personality, background--hardscrabble-to-
riches background, the people did identify with him in a way 
they don't in Bangkok.
    And I mentioned earlier this issue with the Constitution 
and efforts to write a Constitution that was more academic and 
squeaky clean and would basically, if you will, keep them away 
from the government.
    Mr. Faleomavaega. Let me ask all three of you, did you 
think his trial was impartial and fair as far as the judiciary 
is concerned in Thailand? I am talking about Prime Minister 
Thaksin's.
    Mr. Jackson. I wish I could say that I was really familiar 
with the trial itself. I am familiar with the charges, which 
had to do with a particular piece of property that was 
purchased by his wife; and the charge, if I remember correctly, 
was that she was allowed to purchase this at below market price 
when she was married to the Prime Minister of Thailand at the 
time. I don't think anyone really challenged the facts in the 
case.
    The question was, is this offense sufficient to convict and 
send to jail a person who by then was a former Prime Minister? 
The Thai court decided yes.
    Mr. Faleomavaega. Is this an every day thing that goes on 
anyway? I mean this is just Prime Minister Thaksin. It happens 
to other government leaders who have these kinds of business 
transactions? To us it is a conflict of interest, but to them, 
carrying on to the benefits.
    Mr. Jackson. I think your colleague outlined the two 
democracies problem of Thailand; that is, there is one 
democracy that thinks only in terms of who can get the most 
votes and therefore control Parliament. This is the upcountry 
democracy that Thaksin cultivated and utilized.
    There is the Bangkok democracy which says ethics are all 
important; we are trying to clean up the swamp, and the 
conflict that we have watched in Bangkok in the streets is the 
outgrowth of this underlying struggle.
    Mr. Faleomavaega. Professor Dalpino.
    Ms. Dalpino. Mr. Chairman, if I could, I would like to turn 
to this issue of Thaksin in the rural areas. He is not 
universally loved in the rural areas. He was not at the time. 
And I think we need to break down the monolith of rural areas. 
He was popular in the north, he was from Chiang Mai. He was 
popular in the northeast for a number of complex reasons, the 
relative poverty and the fact that the political dynamic in the 
northeast makes it all too easy to deliver the northeast en 
bloc, unfortunately. He is very unpopular in the rural south.
    And here I think we need to bring in the forgotten conflict 
which is the deep south conflict and the insurgency that has 
been going on since 2004. I do not think it is fair to 
attribute the restart of that conflict entirely to Thaksin, but 
he did not make it any easier with his approach which is a very 
ham-fisted, very heavy-handed, very assimilative approach. And 
here, ironically, he demonstrated all of the qualities that 
people are complaining about that so-called Bangkok leads with. 
It shows he is a very complex person, obviously, but he does 
also come from that class as well in many ways. So I think when 
we think about the rural areas, we need to remember the rural 
areas themselves in Thailand are much more diverse than some 
people would understandably----
    Mr. Faleomavaega. Dr. Cronin.
    Mr. Cronin. If I could add to that as well, the issue that 
you have raised of ``doesn't everybody do it'' is certainly a 
valid issue. But in Thaksin's case, of course, you have scale 
which was very, very large. The other thing is that--and really 
the problem isn't one of perceptions. So he was a crook, yes. 
Was he persecuted? That is a matter of perception, and 
disagreement. And one of the problems for the Thai Government 
is, for instance, they are having a hard time getting 
international banks, Interpol, et cetera, to help them deal 
with him and the money that he has stashed abroad. And the 
problem is that the more they demonize him, the more it conveys 
an impression that, well, he may have been a bad guy, but this 
is a political thing and therefore we don't want to have 
anything to do with it.
    And the real problem, I think, is that the system as it is 
set up cannot deal with a situation in which Thaksin came back. 
And so this is a huge challenge because in a new election his 
supporters could, if not gain a majority, lead a coalition 
where they could pass laws that would allow him to come back 
under amnesty or something like that. And that would be a 
nightmare. It is a nightmare scenario.
    So I really have to sympathize and empathize with the 
political establishment in Thailand. It is presented with this 
dilemma that is very, very difficult. And it again goes back to 
the issue then of perceptions and attitudes, so that what the 
government should be doing and what it is doing in terms of 
programs and funding, et cetera, does Thaksin one better in 
terms of providing more development and more services to the 
rural areas. But at the same time, if that is not done with the 
right psychological element to it, if it is done by bureaucrats 
who are kind of giving it down rather than involved in a 
cooperative venture, then it still leaves an opening for 
trouble in the future.
    Mr. Faleomavaega. What would be all three of your 
perspectives if, let's say there is a point of reconciliation, 
and I am sure that it would be agreeable to the Red Shirts that 
Thaksin is allowed to come back and allowed to run for Prime 
Minister. Will that reconcile a lot of the current humbug and 
the situation of the crisis the way it stands right now?
    Ms. Dalpino. Mr. Chairman, I think in the short term that 
probably would just restart the cycle of conflict and violence. 
But in the long term, I think that the ideal under that 
scenario of his returning would be that he would be allowed to 
return, contest for power, that the outcome of the election 
would be respected, but that there would be sufficient checks 
and balances on the system so that he could not subvert the 
Constitution and that if he does indeed have any--as there 
should be on any Thai politician, and I have long maintained 
that Thaksin is not a throwback, a genetic throwback to the 
average politician in Thailand, but that the system could deal 
with him.
    Mr. Faleomavaega. Let's say that by a court of law he has 
been found guilty. Let's say, and I am making a big assumption 
here, that he is pardoned. As a point of reconciliation, that 
would be satisfactory to the Red Shirts, and say, our leader is 
back now, let's leave it now to the people of Thailand to make 
that decision of whether or not he is capable or has the 
ability to sway the majority of the people of Thailand to have 
him as the Prime Minister.
    I don't know, this is another point that they--I am sure 
the government is trying to figure out exactly where the Red 
Shirts are coming from and where the Yellow Shirts are coming 
from.
    At what point do you think there will be some point of 
reconciliation that we can see something more positive than 
what it is now? Dr. Jackson.
    Mr. Jackson. I would go back to Thai history to 1973-76. 
The military dictator of Thailand was a man named Marshal 
Thanom Kittikachorn, and in 1973 he was forced to leave the 
country after a student uprising in which people were killed on 
the streets. He subsequently returned to the country, shaved 
his head, became a Buddhist monk, and then after a time period 
slid seamlessly back into Thai society and into private life 
and lived out his entire existence in Thailand.
    I think that it would be very difficult for the forces in 
Bangkok, that is, the Bangkok dominated courts, the people 
around the monarchy, the people around the Democrat Party, to 
accept the idea of Thaksin Shinawatra being allowed to return 
and to run in politics. However, I think it is not impossible 
that he might be allowed to return quietly to Thai society. And 
I think that that is something that is terribly important to 
him as an individual. So there is some quid pro quo here that 
could conceivably be worked on.
    I think the people who are in power now in Bangkok would 
want to extract a promise, an enforceable promise, that he 
would never again directly participate in politics. So that is 
where I see the possibility of a deal; but I would add, I have 
no relevance to either side of this deal.
    Mr. Faleomavaega. Professor Dalpino.
    Ms. Dalpino. I think that the immediate issue is what would 
happen if his successor party to Thaksin's Thai Rak Thai party, 
the Puea Thai party, should get a plurality in the next 
election? Thaksin himself is a wild card. What he actually 
wants is not something that is entirely clear.
    So I am not sure that even the Puea Thai would want to 
stake a whole policy on his return. And one scenario might be 
that he just diminishes in importance as some of these issues, 
particularly having to do with discrepancies between center and 
provinces and economic discrepancies are addressed, I think it 
is very important to decouple Thaksin from those issues, 
because those issues are very longstanding. They have been 
existing in Thailand for decades and decades and decades.
    But I think that you don't even need to think about a 
return. I think that some parts of the--many of Thaksin's 
detractors believe that if Puea Thai party were to come into 
power, then Thaksin would be able to manipulate power through 
them. And that is a very immediate issue, and I think probably 
the crux, in the short term, of reconciliation.
    Mr. Faleomavaega. Dr. Cronin.
    Mr. Cronin. Well I would fall, I think, in the same line of 
argument; that is, I would distinguish between Thaksinites and 
Thaksin. And definitely Thaksinites must have a share of 
political power in the future, and that could well come in the 
form of plurality in the next election. I don't know. But it is 
a challenge I think for the democrats and their ruling parties 
to compete in the rural areas with the Thaksinites.
    Eventually, I think that Thaksin is going to turn up again 
one way or the other, and the question is can he be contained 
in the sense of being forced to stay out of politics as a 
bargain, at the price of coming back and doing his business and 
other things that he does. But he will always be there behind 
the scenes.
    And so ultimately I think you go back to Karl Jackson 
talking about decentralization, talking about the kind of 
political change which would minimize or reduce the importance 
of single figures, you know, charismatic figures, getting back 
to a kind of politics that is more multipolar and consensual, 
and I think that that is the best way Thailand should try to go 
anyway.
    Mr. Faleomavaega. I have not had a chance to field any 
critical editorials or commentaries made about the result of 
Prime Minister Thaksin's court trial. And I get the impression 
that perhaps as quoted in his opinion, he wasn't treated 
fairly. And for reasons, as you say, that he no longer comes 
back to the country, I suspect that he will immediately be put 
in jail, which is something that will cause even greater 
problems to the society or to the people in Thailand.
    And I raise the question--I am sorry I couldn't get him to 
come and testify to this subcommittee. I would love to have 
him. I don't even know if he is allowed to come to our country 
in terms of we would probably send him by way of reciprocity to 
Thailand if he ever was to come to the United States.
    But I just, as I am sure you are concerned, as are my 
colleagues, he is a very colorful leader. As you said, he went 
from rags to riches, becoming a billionaire by being a 
successful businessman, seemingly, and wanting to help Thai 
society in that respect by giving some of the wealth or 
whatever it is that the government can provide to those who are 
less fortunate.
    How serious is this idea that the middle class, and I am 
very vague on this, and I really want to understand, is there 
really a middle class in Thailand that seems to be one of 
critical influence, whether it be with the Red Shirts or the 
Yellow Shirts in the crisis? And then the problem is you can't 
point exactly who is the leader of this so-called middle class 
that seems to have a lot of influence. How did they get the 
tires? How did they get all of these things to allow them to 
cause this demonstration that is now turning violent? Is there 
really a middle class that is bringing out this sense of 
frustration through these factions that we see causing the 
crisis we have in Thailand?
    Mr. Jackson. First of all, there certainly is a Bangkok 
middle class. There is also an urban middle class up in Chiang 
Mai. It is one of the great products of the kind of economic 
development that we have seen in the last 50 years in Thailand.
    However, the middle class and its involvement in politics 
is somewhat episodic. In 1973, it very much sided with the 
students. By 1976, it didn't support the very nascent democracy 
because the democracy and in the perceptions of the middle 
class had gone off the track. If you look across Thai history, 
you see the middle class coming in and coming out.
    In the latest series of conflicts, I don't know that anyone 
ever did any real polling, or at least I am not aware of any, 
my colleagues may be, but if anything, civil society forces and 
the Bangkok middle class probably had their hearts, not with 
Thaksin but with the Yellow Shirts because they saw Thaksin 
absorbing all of the enterprises around Bangkok. He was 
becoming so overly powerful that he was almost strangling 
future opportunities for them.
    So I don't think anyone knows exactly how the middle class 
of Bangkok splits at any given time, but it was at least my 
impression that, if anything, they tended to be on the side of 
anti-Thaksin forces.
    One footnote. In 2005, there was an election in Thailand. 
It was at the end of a regular term of Parliament, Thaksin's 
first term. At the end of that term of Parliament, there was 
this election, and it was the highest turnout in the history of 
Thailand. And the Thai Rak Thai Party of Thaksin took 61 
percent of the vote nationally. TRT took 56 percent of the vote 
in Bangkok. So my colleague, Professor Dalpino's caution that 
this is always complex and it is always moving is well taken.
    Thank you.
    Mr. Faleomavaega. Professor Dalpino?
    Ms. Dalpino. Thailand has always had a middle class, but it 
has grown exponentially in the last several decades. In fact, 
in 1957, the public uprising in the middle class forced a very 
prominent political figure to be thrown out of the country. 
That has always been there.
    I would actually dissent a little bit from the idea that 
the middle classes were inherently against Thaksin. They 
actually were for him in the beginning. The Bangkok middle 
class, too. He represented something different to them than 
Thaksin represented to the rural areas. He represented 
globalization. He was the head of a very well known 
international telecommunications firm. He represented national 
pride. Thai Rak Thai means Thais loving Thais. He specifically 
targeted Thailand's loss of face during the 1997 financial 
crisis and promised that Thailand would pay back the IMF 
bailout funds early, and he represented a kind of 
sophistication that went down very well with the younger 
generations.
    Usually when a prime minister is inaugurated, he goes to 
the temple and prays for guidance. When Thaksin was 
inaugurated, he put his wife into the family Porsche and went 
to Starbucks. That to the Bangkok middle classes was cool. It 
is just that they had more of a frontrow seat for some of his 
governance style after that, and they became disillusioned with 
him in many ways, and the rural areas, for one reason or 
another, were less quick to become disillusioned with him while 
he was in power.
    Mr. Cronin. I think Catharin has put it very well. It is a 
very complex situation, and I tend by nature to look for 
structure or more general explanations for things. I think one 
of them is that Thaksin was a modern man, and Thaksin was going 
against----
    Mr. Faleomavaega. Was he a maverick?
    Mr. Cronin. Maverick, yes. Also, in terms of his 
globalization orientation, his business interests, the way he 
did things, he was a CEO with all of the good and bad of that 
kind of a personality. And he was going against a political 
order which, as I said at the beginning in my statement, wasn't 
changing as fast as the economic situation was changing. So 
that is one important element.
    The other is this issue to talk about not oversimplifying 
things, a lot of the Red Shirts came to Bangkok with pickup 
trucks, and they had all of the appliances and here you are 
talking almost more of a rising expectations issue than abject 
poverty. So those rising expectations came from people who want 
to become part of the political process, and if they find 
themselves regarded as bumpkins and somebody to somehow be kept 
out of the center of power, that creates some real problems. 
And there was a kind of heady sense of power and empowerment 
that Thaksin generated and that these Red Shirts brought them 
with them to Bangkok for the demonstrations.
    Mr. Faleomavaega. I know I have taken so much of your time 
already this afternoon, and I want to thank all of you for the 
excellent testimony you have provided the subcommittee. We may 
be holding another subcommittee hearing on the issue, but I 
understand that my good friend, the chairman of the Senate 
Foreign Relations Subcommittee on the Asia Pacific, Senator 
Webb, has just returned from Thailand, and hopefully, we can be 
of help to the good people of Thailand in resolving this crisis 
that they are faced with right now.
    All of your statements will be made part of the record, and 
if you have any additional materials to be added, they will be 
made part of the record as well.
    I sincerely thank you for coming this afternoon. I learned 
a lot. I certainly got an education myself. I have visited 
Thailand a couple of times, and it is a very, very beautiful 
country with a rich culture. And something that I always sense 
that we have to be mindful of ourselves, that sometimes our 
tendency to tell other people how they should conduct 
themselves by way of using our form of democracy as the end all 
and be all for other countries to follow, I don't think that is 
a very good way of helping the good people of Thailand.
    I do want to keep in touch with you. We may have perhaps a 
reunion when we find out what is going to happen in the next 5 
or 6 months.
    As you mentioned, Ms. Dalpino, the timing of the election 
is going to be so critical, and exactly how the negotiations, 
how it is going to come about and whether or not the people of 
Thailand are going to accept whatever the government is going 
to be able to negotiate with the leaders and the members of the 
Red Shirts and the Yellow Shirts. And our friend, former Prime 
Minister Thaksin, in my own humble opinion, will have a 
critical role to play. I hope he does it in a positive and 
constructive way for the sake of the people of Thailand.
    Thank you so much. The hearing is hereby adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Fa
                               leomavaega-
                               -FTR deg._
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
